HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in Michigan That Were Paid Under The Medicaid Program,"(A-05-02-00077)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in
Michigan That Were Paid Under The Medicaid Program," (A-05-02-00077)
November 28, 2003
Complete
Text of Report is available in PDF format (607 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to identify the number of children in
Michigan who received child support (Title IV-D children) and also received Medicaid benefits because their noncustodial
parents (NCPs) did not provide court-ordered medical support.  We also determined the potential savings that could
have accrued to the Medicaid program if the NCPs had been required to contribute toward the Medicaid costs of these children.  We
projected the sample results to the total population and estimated that the noncustodial parents of 35, 047 children could
have contributed $10.5 million of the $26.8 million incurred by Medicaid for health benefits for their children.  The
State did not disagree with our recommendation, but has chosen to implement enhancements to its child support enforcement
system prior to evaluating the cost effectiveness of our recommendation.